4
|

C@OCKLE

: E-Mail Address:
Le g al Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1148

ROBERT M. SELLERS,
Petitioner,
v.
DENIS R. MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF NATIONAL LAW
SCHOOL VETERANS CLINIC CONSORTIUM AS AMICUS CURIAE IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5891 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska A a Z d,
‘ RENEE J. GOSS 9. Oud é

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 40740
